U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 10, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Texas, et al. v. Commissioner of Internal Revenue, et al.
S.Ct. No. 21-379
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 3,
2021, and placed on the docket on September 8, 2021. The government’s response is due on
October 8, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 8, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0379
TEXAS, ET AL.
COMMISSIONER OF INTERNAL REVENUE, ET AL.

JUDD EDWARD STONE
TEXAS ATTORNEY GENERAL'S OFFICE
P.O. BOX 12548
AUSTIN, TX 78711-2548
5169361700
JUDD.STONE@OAG.TEXAS.GOV

